                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: 1-08080047                                                                     Page I ofl



         NSF-OIG received an anonymo~ complamt that two NSF employees l were signing each other in
         and out ofthe integrated time and attt?11dance system (ITAS). The employees were interviewed
         and admitted signing each other in or out ofITAS in order to obtain credit for hours that were not
         actually worked. A report of investigation was submitted to the appropriate NSF official2 for
         action. Both employees were issued a Notice ofProposal to Remove them from their
         employment at NSF. Both employees were later issued Letters of Decision that would remove
         them from employment with NSF effective June 5, 2009. The two employees resigned their
       . positions in lieu of removal. One of the employees3 later filed a petition to review her case with
         the Merit Systems Protection Board, but her petition was denied.

        Accordingly, this matter is closed.




NSF OIG Form 2
                                     NATIONAL SCIENCE FOUNDATION
                                          4201 Wilson Boulevard
                                        ARLINGTON, VIRGINIA 22230




                                             DEC 1 8 2008

      OFRCEOF
 INSPECTOR GENERAL

Confidential


        To:                    Program   Sup~Manager,


  From:          Peggy L. Fischer,   Associa~~~Investigations
 Subject:        Investigative Report (Case # I08080047)



 Please note: This report contains confidential personal infollTIation and it should be disclosed
 only to individuals who must have knowledge of its contents to facilitate NSF's assessment
 and resolution of this matter. Unauthorized disclosure may result in personal criminal
 liability under the Privacy Act, 5 U.S.c. § 552a(i)(1).



The attached Investigative Report concems two                 Program Assistants (the
employees) who admitted t.o signing each other in and out of the Integrated Time and Attendance
System (IT AS).

Based on the facts set out in the Investigative Report, we have concluded that the employees
kilOwingly violated NSF policies with regard to time and attendance. We recommend that NSF
take appropriate personnel action with regard to the subjects. Please advise OIG by January 30,
2009 of the action(s) taken regarding this recommendation.


Attachment

cc: 	     Christine C. Boesz, Inspector General


          Kathie L. Olsen, Deputy Director, NSF
CoNFIDENTIAL
                                                                                        CoNFIDENTIAL




       National Science Foundation
        Office of Inspector General




                        Confidential
                  Report of Investigation
                 Cas·e Number 1-08080047 .
                           18 December 2008 - .


 This Confidential Report of Investigation is the property of the NSF 01 G ~d may be disclosed outside
      NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.c. §§ 552, 552a. .

                                                                                  NSF OIG Form 22b (n/o6)
     Please note: This report contains confidential personal infonnation and it should be disclosed
     only to individuals who must have knowledge of its contents' to facilitate NSF's assessment
     and resolution of this matter. Unauthorized disclosure may result in personal criminal
     liability under the Privacy Act,S U.S.C. § 552a(i)(1)..



I.        Summary

OIG received an anonymous submission over the web hotline l alleging abuse of the Integrated
Time and Attendance System (ITAS) by two Program Assistants (Subjects 12 and 2 3) from the
same Divisiori4 at NSF. The submission alleged that the Subjects regularly signed each other in
and out ofITAS.

OIG investigated the allegation that the Subjects were misusing ITAS for personal gain.
Specifically, the allegation alleged the Subjects signed each other in and out of ITAS to receive
credit for hours spent outside of work. OIG reviewed the Subjects' Official Personnel Files
(OPF's), ITAS records, telephone records, ID badge use records, and Outlook folders. OIG also
                                                                                    6
conducted interviews of the Subjects, their supervisor,s their division's timekeeper and backup
                                       8
timekeeper,7 and a Program Director from their division.                                   '

OIG concludes that:

        • 	 The Subjects failed to meet the standards of conduct expected of NSF and executive'
            branch employees;

        • 	 The Subjects were credited for hours they did hot work, therefore receiving payment
            and leave hours beyond what was earned; and

        • 	 The Subjects lacked candor during the course of an official OIG investigation.




                                            - 1-
                       CORRESPONDENCE ApPROVAL SHEET (OFFICIAL FILE Cop,')
     This report will summaIize our investigative findings with respect to these conclusions.

     II.    OIG Investigation

           A.     Investigative Activity into Subjects' Alleged Abuse ofITAS

     Subjects I and 2 both serve as Program Assistants, involved in processing aWaI'd proposals
     within their NSF Division. Subject 1 worked within the Division since November 23,2007 and
     Subject 2 joined the Division in June 25,2007. They did not know each other prior to joining
    their Division. At all relevant times, Subject 1's tour of duty was 7 am 3 :30 pm, and Subject
    2's tour of duty was 8:00-4:30, though their supervisor allotted them flexibility, pursuant to
    NSF's Flexitime program,9 regarding when their 8~hour tour of duty would begin on a daily
    basis. Between January aI1d May 2008, the subjects generally worked their respective tours of
    duty, only signing in or out of ITAS within 10 minutes of each other on very rare occasions. 10 In
    April 2008, their supervisor provided both employees with performance evaluations of
    minimally satisfactory due to work deficiencies, and as desclibed below, shOltly thereafter, their
    ITAS practices dramatically changed.

                                  Document"Review Revealed ITAS Abuse

 Beginning May 13,2008, the records establish that Subject I and Subject 2 began signing each
 other in and out o fITAS , as alleged by the anonymous hotline complaint. Specifically, the ITAS
 records establish that between May 13,2008 and September 5, 2008, of the 56 days both
 Subjects worked, they were signed into ITAS within ten minutes of each other on 45 occasions, II
 and signed out within ten minutes of each other on 21 occasions. As demonstrated above, this'
 was a significant change from previous months, when they rarely signed in or out within 10
 minutes of each other.

FUlther, by comparing the ITAS records with both Subjects' badge records, email records and
phone records, 010 detennined that Subject 1 consistently arrived at NSF over an hour prior to
Subject 2 and signed both in upon her arrival. There were instances of Subject 2 arriving over
four hours after Subject 1 had signed her into ITAS.12 In addition, on several occasions, Subject
2 signed Subject 1 in or out ofITAS. An analysis of these records estimate that Subject 1
received NSF credit and pay for over 34 hours that she was not actually on duty, and Subject 2
received NSF credit and pay for over 63 hours that she was not actually on duty.



9   NSF Manual 14, Personnel Manual, Chapter VIII-AttencJance and Leave, Subchapter 100 NSF Flexitime Program
10  Specifically, of the 70 workdays between January 1 and May 13,2008, Subjects signed into ITAS within 10
minutes of each other on only 4 occasions, and signed out of ITAS within 10 minutes of each other on only 7
occasions.
                        lh
 II Beginning~,1ay 13 , Subject 2 on average did not use her phone, email or ID badge until 1 hour and 9 minutes
afl;d: she had beeb signe~lj:nto ITAS•. Prior to :tyfay 13 1h, Subject 2 on average used her phone, email or ID badge
within'7minutes after ~e-had been signed into ITAS.'" " .......                 .' .. '
12"bJ(j also ~oted s'ev~~~l i~~~nces on the phone records of Subject 2 using her cell phone to call Subject 1'.s office
direct phone number shortly before, or for several hours after Subject 2 was signed into ITAS. A full analysis of
these records is provided at Tab 2.


                                                    -2-
     On September 5, 2008, the Subjects were wamed by their supervisor to cease their abuse of
     ITAS. However, the Subjects continued to sign each other in and out of IT AS up until the day
     they were interviewed by OIG. 13 The following chati summarizes the number of hours lost and
     monetary cost to NSF resulting from the subjects' misuse of the ITAS system:

                                 Subiect 1                   Subject 2
     Suibiect's Grade            GS-303 611                  GS-303-7/1
     Annual Salary               $35,392                     $39,330
     Hourly Salary               $16.96                    . $18.85                      !
     Hours taken from NSF        34                          63
     Monetary Loss to NSF        $ 576.64                  I $ 1,187.55

     On October 7, 2008, after OIG had received the anonymous hotline complaint, the Subjects' .
     supervisor called OIG directly to report the Subjects' ITAS abuse to OIG. The supervisor stated
     that she had been monitoring the Subjects for approximately two months and found that Subject
     1 had been signing Subject 2 into ITAS on a regular basis, and that Subject 2 typically did not
     arrive at work until an hour or two after Subject lhad signed her into ITAS. 14

                                     Interviews -Confirmed ITAS Abuse

 On October 23,2008, to follow-up her phone call, OIG interviewed the Subjects' supervisor ls
during which she provided the documents to support her concems. She also confinned thatshe
had confronted both individuals about their abuse of ITAS in a private meeting on September 5,
2008, and though she initially believed the Subjects had ceased their behavior after the meeting,
she recently learned that all that had been done was that they altered the pattem so that Subject 1
would wait 30-45 minutes each moming before she signed in Subject 2, thereby concealing the
continued ITAS abuse. In addition, she infonned us of a recent situation on Friday, October 1ih,
during which a Division Program Director 16 had complained that she could not locate Subject 2, .
thougft Subject 2 confinned she would be at work that day, and had been signed into ITAS on
that date. The Subjects' supervisor was not aware of, nor had she attempted to monitor, any
ITAS abuse by either Subject with respect to sign-outs at the end of the day, but also noted that
she had not focused on such activity.

On October 27, 2008, OIG interviewed the Subjects' timekeeper. 17 The timekeeper stated that
Subject 1 generally arrives at work at 7:00 a.m., while Subject 2 generally arrives between 9:30
and 10:00 a.m., well after Subject 1 had signed her into ITAS. The timekeeper stated that the
ITAS abuse was blatant and happened very frequently.



13 October 30, 2008
14 The supervisor monitored Subject 2's attendance by turning the Subject's chair each night in such a way that the
supervisor would know whether the Subject had arrived at work by the position of the chair. The supervisor would
check the ITAS system each morning when she arrived to see if Subject 2 had been signed into ITAS after noting
whether the chair had moved since she positioned it the night before.
15Tab 3, MOl - Supervisor Interview October 23, 2008.
16   7
17   Tab 4, MOl Timekeeper Interview October 27,2008
                                                                                                                      ,
                                                                                                                      I
                                                                                                                      I
                                                  - 3 :-                                                              I
                                                                                                                      f

                                                                                                                      I
     On October 30,2008, OIG interviewed Subject 1. 18 Upon being pre~ented with the documentary
     evidence, Subject 1 admitted that she had signed Subject 2 into ITAS, and stated that she was not
     the one benefiting from the misuse ofITAS. She said that she signed Subject 2 into ITAS
     because Subject 2 asked her to, but she did not offer any other explanation for her action, and
     denied knowing when Subject 2 would actually alTive at the office each mOl11ing. Subject 1
     denied that Subject 2 ever signed her in or out of ITAS.

     Subject 1 stated that she did not know what hann it would cause to sign Subject 2 into ITAS and
     that she just assumed that Subject 2 was putting in her full 8 hours of work each day. Subject 1,
     stated that it never dawned on her that Subject 2 was not doing her 8 hours, and never thought
     about the credit hours that might be eal11ed by Subject 2 working 8 hours after being signed into
     ITAS in the morning before she got into work. When asked why she would have to sign Subject
     2 into ITAS in the morning, when Subject 2 could have just signed in upon arrival, and signed
     out 8 hOUl"slater, Subject 1 could not answer the question, and stated, "I've asked myseifthat
     very thing. I don't know.".

   :When asked why this ITAS abuse continued after the September, 5th conversation with her
. supervisor, she responded she could not remember if she had signed Subject 2 in after the
 . September 5th meeting and could neither confinn nor deny it. Subject 1 also denied that she
  automatically signed Subject 2 into ITAS every morning, claiming that she would only do so
  upon a phone request from Subject 2 to her work number. Even when told that the phone
  records established that she only received calls from Subject 2's cell phone on fewer than 15
  occasions, she continued to deny that this was an automatic process.

 When asked whether she had any remorse about signing Subject 2 into ITAS after the
 conversation with her supervisor, Subject 1 stated that she did have remorse, and claimed that
 she had a follow-up conversation with her supervisor after their September 5th meeting, and
 several conversations with Subject 2 in which she warned Subject 2 that there could be
 repercussions for their ITAS misuse. As a note, both Subject 1 's supervisor and Subject 2 deny
 that these conversations ever took place. Moreover, though Subject 1 admitted that she had
 supplied her ITA~ password to Subject 2, she denied that Subject 2 ever signed her in or out of
 ITAS, and denied benefitting from this scheme in any fashion.

On the same date, OIG interviewed Subject 2 19, who admitted the ITAS abuse and provided
additional details. She infonned us that she had previously worked at the National Institutes of
Health, which did not have a sign in/sign out system, allowing for more flexibility .. While at
NIH, she would just call her supervisor and tell her when she would arrive at work.

Subject 2 stated that she would call Subject 1 if she was mnning late, and that it was not
automatic that Subject 1 would sign her in each morning. She had godchildren to drop off at
school every morning, and then she would hit traffic getting into work at NSF. She did not recall
how or when she had Subject 1 start signing her into ITAS. She stated that she never intended
hann or to jeopardize her situation. She noted that her leave was 'mnning out quickly every time
she had to sign in a few minutes late, or sign out a few minutes early.

18   Tab 5, MOl Subject I Interview o.ctober 30, 2008
19   Tab 6, MOl - Subject 2 Interview October 30,2008


                                                  -4-
   When asked how she contacted Subject 1 each morning, Subject 2 responded that 9 out of lO
   times she would call Subjectl at the office to tell her that she was mnning late. When told that
   the phone records did not supp0l1 her claims, Subject 2 again denied that Subject 1 automatically
   signed her into ITAS each moming.         '

  Subject 2 stated that she would arrive between 45 minutes and an hour after Subject 1 signed her
  into ITAS, and asserted that Subject 1 never signed her out of ITAS. When asked whether she
  ever signed Subject 1 opt of ITAS, she responded, "If I did, it was not consistently. I do not
  recall if I signed her in, or out." When reminded that the records made it appear that she had
  signed Subject 1 out ofITAS on some occasions, Subject 2 responded that she did sign Subject 1
  out a couple of times if she had to leave early to pick up her son. '

   Subject 2 admitted to two specific instances of ITAS abuse. First, she admitted that on Friday,
  October 17,2008, though claiming that she an'ived into the office that morning and signed
  herself in, she admits that she left the office for approximately 2 hours to have her car fixed, and
, upon retuming to the office, did not enter any leave into the system for her absence during her
  tour of duty. Moreover, she admitted attending a dress event at the local Filene's basement on
  August 1, 2008, during which she was signed into IT AS all nioming by Subject l, but did not
                                             2~                                                ,
  take any leave for her absence that date.
                  ,
                                                                         ",
                                                                                               ,

 When asked to explain why she continued to misuse ITAS after her supervisor had confronted
 her in September, Subject 2 stated that she did not have a reason, that to provide a reason would
 be to make an excuse, and that she has no excuses. She stated that she had not spoken about her'
 ITAS use with her supervisor other than their September 5 th meeting, because there was no need.
 Subject 2 said that she never spoke about the ITAS misuse with Subject 1, nor did she know of
 any follow up meeting that Subject 1 had with their supervisor.

When asked whether she knew this was wrong, Subj ect 2 responded" "of course," and stated
when asked that she felt remorse for her actions and that she never intended any haml. She
admitted that she knew that her actions were not right, and stated, "I can own up to my own
faults."

Both Subjects admitted having given each other their ITAS passwords. In addition, both
Subjects stated in their. interviews that the misuse of ITAS is widespread throughout NSF, with
Subject 2 estimating that 8 out of 10 employees do the same thing. However, neither Subject
would provide th~ names of other employees they knew were engaged in this activity.

Based upon the infonnation provided, 010 detennined that in addition to abusing ITAS by ,
signing each other in and out, both Subjects lacked candor during an official investigation by
providing the following false or misleading infomiation to oro investigators: As shown below,


20 Subject 2 indicated to us that she thought that might have been a day that she took some leave after the fact, but
the ITAS records reflect that she did not take any leave that date. Moreover, there were several phone calls from her
cell phone to Subject 1's work number that morning, prior to ,her arrival into the office, indicating a knowing intent
to commit ITAS abuse on ,that date.



                                                   -5-
  Subject l's lack of candor was more significant in that she failed to accept any responsibility for
  her actions, and failed to admit any benefit to herself                                          .

           • 	 Subject 1 denied having Subject 2 ever sign hel~ in or out ofITAS, while the records
               and Subject 2's testimony prove this to be false.

           • 	 Subject 1 stated that she had a private meeting with her supervisor following the
                            th
               Septefnber 5 meeting, while the supervisor stated that the September 5 th meeting
               was the only time she spoke with either Subject regarding ITAS ·use.

           • 	 Subject 1 claimed that she confi-onted Subject 2 about showing up to work late, but
               Subject 2 stated that they never had any conversations about it.

          .•     Both subjects claimed that their scheme was not automatic, claiming that Subject 2
                 would call Subject 1 each day she was signed in prior to an·ival. The phone records
               . show only 10 instances when this could be true.

         B.      Review ofApplicable Rules and Regtilations

 As described above, the Subjects provided each other with their confidential ITAS passwords
 and misused that infonnation to sign each other in and out of ITAS when the other was not
 actually on duty at NSF. By their actions, both Subjects lacked integrity and violated policies
 and lUles applicable to them as employees of NSF and ofthe executive branch of the federal
.govemment.

Specifically, pursuant to 5 C.P.R. § 2635.101, "public service is a public trust,"requiring
executive branch employees to "respect and adhere to the principles of ethical conduct,,,21 and to
"put forth honest effort in the perfonnance of their duties. ,,22 In addition, "employees shall
endeavor to avoid any actions creating the appearance that they are violating the law or the
ethical standards.',23

NSF Manual 15, Conflicts of Interest and Standards of Ethical Conduct, adopts the principles set
forth above. 24 Further, Section 56 of NSF Manual 15 requires that employees use their official
time "only in an honest effort.to perfonn official duties."

NSF Manual 14, NSF's Personnel Manual, sets for the expectations of it Flexitime program that
allows employees to have discretion to change their work hours on a daily baSIS, to allow them
flexibility. To ensure accountability, NSF uses the ITAS system to "provide affinnative
evidence that each employee subject to the flexitime has properly accounted for their work
hours.,,25



21 5 C.F.R. § 2635.101 (a)
225 C.F.R. § 2635.101 (b)(5)
23 5 C.F.R. § 2635.101 (b)(l4)
24 NSF Manual 15, Section 3
25 NSF Manual 14, Chapter VIII, Subchapter 100, Section 146




                                                -6-
  Moreover, NSF's security awareness training mandated for every NSF employee on an annual
  basis, prohibits employees fi-om sharing their confidential passwords with others, and NSF
  Bulletin No. 04-10, NSF Password Policy, does the same, specifically stating: "Do not share
  NSF passwords with anyone, including administrative assistants or secretaries. If you must
  reveal a password to enable emergency access, be sure to change that password at your earliest
  opportunity. "

 Clearly, both Subjects failed to adhere to these applicable policies, by sharing their confidential
 passwords with each other for the purpose of making false entries into ITAS for each other, .
 thereby receiving both credit and pay by NSF for hours they did not work. They did so knowing
 that this was wrong, and they continued to do so even after their Supervisor directed them to
 discontinue this abuse. Moreover, by lacking candor dUling the OIG investigation, the Subjects
 also violated NSF policy requiring employees to cooperate with an OIG investigation, by
 providing truthful responses to OIG investigators. 26

 III.     OIG Conclusions and Recommendations

 Based on the facts presented above, OIG concludes that Subject 1 and Subject 2 engaged in a
 dishonest scheme of knowingly entering false infoTI11ation into the ITAS system for each other,
 in order to receive both pay and credit for hours that they did not work at NSF. They continued
 to do so even after being warned by their direct supervisor that this misuse of the ITAS system
 must cease. Their misconduct resulted in a minimum of97 hours of work hours falsely charged
 to NSF, and a resulting monetary loss to NSF of$I,764.19. In addition, OIG concludes that
 both Subject 1 and Subject 2 lacked candor during the OIG investigation by either denying or
 misrepresenting the extent of their misconduct.                                               .

 For these reasons, OIG recommends that NSF take appropriate administrative action with regard
 to Subjects I and 2.




26 NSF Manual 14, (Ch. I '1I143)("NSF employees must also fully and promptly comply with all requests for
documents, interviews, briefings, and other information from OIG.") and NSF Staff Memorandum OlD 91-18
(Requests from the IG's staff for records, documents or interviews should receive priority attention. The OIG is
entitled both by law and by Foundation policy to all records, documents, papers, and other materials that relate to
NSF programs and operations .... The interests of the Foundation and its staff will be best served by completely open
and forthright cooperation with our Inspector General.)



                                                   -7-
                            List of Tabs

Tab 1     Hotline Web Submission, dated Thursday, August 7, 2008
Tab 2     MOl - Review of Records 10-3-08
Tab 3     MOl - Supervisor Interview, October 23, 2008.
Tab 4   . MOl - Timekeeper Interview, October 27,2008
Tab 5     MOl Subject 1 Interview October 30, 2008
Tab 6     MOl Subject 2 Interview October 30, 2008




                          -8-
 MEMORANDUM

 DATE: June 4, 2009


To      :                    Acting Division   Dire~tor,

From                        Program Assistant.


Subject: Resignation

This is to inform you of my resignation from                  as of Frid.ay, June 5,2009.
Although this is a sudden decision, I feel this is within the best interest of my Federal
career as well as my health and well being. I have gained an abundance of knowledge
(whether good or bad) while working here at NSF. Please note,                     has four
pending panels that will need to be completed upOQ. my departure.




Sincerely,




                                                                                             i
                                                                                             I
                                                                                             t
                                                                                             l
                                                                                             f
                                     National Science Foundation
                                     4201 Wilson Boulevard
                                     Arlington. Virginia 22230




  Date:                May 27,2009

 To:                                 Program Assistant

                       Division of

 From:                                       Deputy DIVision Director·



 Subject:              letter of Decision

 By letter dated April 14, 2009, you were notified of a proposal to remove you from the National
 Science Foundation. I was designated as the deciding official on that proposal.

 You were advised of your rights to representation and to reply to me orally and/or in writing
 within 14 calendar days of your receipt of the proposal. An initial meeting was scheduled for
 April 27,2009. However,                     Steward AFGE local 3404 was unable to attend this
meeting, and it was rescheduled for May 5, 2009. At the May 5 meeting, you provided a
written response. Also, during that meetlngt you provided an oral statement. In both your
written and oral response, you allege (1) the practice of fraudutent use of the ITAS system is
widespread in the division and you should not be singled out for punishment, (2) your
supervisor,                   failed to inform you that you were doing anything wrong and,.in .
fact, never met you regarding the subject, (3) that there is an "inside clique" of people who
receive special treatment, Including access to training, and you· were being punished as an
outsider of this clique and (4) that the first you were notified of any ·misconduct was at a
meeting with personnel from the Office of the Inspector General on October 30, 2008.

t have given fulf consideration to your written and oral reply that you presented while
accompanied by your representative                     I have also considered the information
regarding the charges contained in the Notice of Proposed Removal.

The proposal to remove you from the Nattonaf Science Foundation was based on the charge of         •   I

Unacceptable Conduct. The charge is supported by 24 specifications of dates that Indicated
that you signed                   .into the Integrated Time and Attendance System {lTAS}
using her password when she was not at work.

Based on your questions posed in your May 5, 2009 written response, I conducted an
investigation and as a result, I am removing specification #20. The remaining 23 spedfications
are clearly supported by the evidence in the case file. The charge of unacceptable conduct is
sustained.
  In making my determination, I have considered your claim thatthe practice of fraudulent use of
  ITAS is widespread in the division and that you should not be singled out. I find no substance to
  the allegation that misuse of the ITAS system across the division is widespread. You state that
  "Others and I have see~on many occasions leave her desk before the end of
  her tour of duty dressed in workout clothing to go to the gym, then return to sign out." You
  also state,                        went straight to the OIG purely out of spite." However,
  notification to the 0                    r was done anonymously, and you provided no factual
 evidence that it                          who initiated the Investigation. I provided you with an
 opportunity to provide me with additional specifics on the allegation that ITAS abuse is
 widespread In the DIVision, but you were unable to do so. In consideration of the vagueness of
 this allegation, I do not find this allegation credible. Further, I do not believe that the truth or
 falseness of this allegation should affect the outcome of this case.

  I have also considered your May 12, 2009 response that~ailed to inform you at the·
  meeting that she held with you on September 5, 2008 that you were doing anything wrong or
 that you ever met regarding fraudulent use of ITAs. Evidence indicates t h a t _ m e t
  with you to discuss irregularities regarding the ITAS sign In times and the actual arrival times of
 you and _                The Memorandum of Investigation notes from the OIG clearfy discuss
 that a meeting took place. Moreover, I have concluded that, at the meeting, _
 Informed you that your conduct was inappropriate and that you should refrain from engaging In
 it any more. Regardless of whether I                   did, in fact, convey this message to you,
 however, you knew or should have known that fraudulent use oflTAS was not permitted. Thus,
 I am not persuaded by your claim.

In addition, I have considered your claim that there is an inside clique of people who receive
special treatment, access. to training and that you're being punished as an outsider. As regards
the allegation that there is an I'inside clique" of peopte who are treated differently, I have
reviewed your performance appraisals. You joined                   in 2007 and received two
performance appraisals from                 t both were Minimally Successful. These appraisals
note that your performance is sporadic and lacks initiative and focus, and your work product
was inadequate. J find that you have been treated no differently than any employee
performing at your level of performance. Further, I dQ not find that you have been denied
access to training.

lastly, I have considered your claim that the first you were notified of any misconduct was at a
meeting with personnel from the Office of Inspector General on October 30, . 2.008. As
previously indicated, I disagree. f have determined that_informed you that your
conduct was inappropriate when she met with you on September 5,.2008. Regardless of the
nature of this meeting, however, you knew or should have known that fr~wdulent use of ITAS
was not permitted. Therefore, I do not find this claim credible.

Penalty Consideration

In making my decision, r have considered the following:

1.   The nature and seriousness of the offense, and Its relation to the employee's duties,

                                                                                                2
"




           position, and responsibilities, Including whether the offense was intentional or technical or
          inadvertent, or was committed maliciously or for gain, or was frequently repeated. I find
          this factor relevant to this case. Falsification of time and attendance records is in clear
          violation of the General Standards of Ethical Conduct as provided in Executive Order
          12674, which you requested a copy of and I provided to you. Evidence indicates that you
          engaged in falsification of time and attendance records several times between May 23,
          2008, and September 30, 2008. Your actions were Intentional and repeated. This behavior
          continued after meeting with your supervisor on September 5. As a government
          employee, you are expected to be trustworthy and of good character. You are also
          expected to put forth honest effort in the performance of your duties.

     2. 	 The employee's pastdisciplinary record. I find this factor relevant. You have no record of
          previous disciplinal)' actions, but I do not find that sufficient to offset the seriousness of
          the misconduct to which you are charged.

     3. 	 .The employee's past work record, including length of service, peiformance on the job,
           ability to get along with fellow workers, and dependability. I find this factor relevant. Your
           performance was marginal during the period of the offense, and your performance was
           provided to you in writing and discussed with you by your supervisor. You came to
          from              in 2007. You note In your response to me, that you received a Fully
          Successful performance appraisal and two IICommendable" awards in May and July 2007,
          with a monetal)' award of $400. Your period of service to NSF is relatively short and not at
          a level of performance that would mitigate your actions.

    4. 	 The effect of the offense upon the employee's ability to per/orm at a satisfactory level and
         its effect upon supervisors confidence in the employee's ability to perform assigned dutilts.
         I find this factor relevant. Your misconduct has negatively affected your supervisor's
         confidence In your ability to perform your aSSigned duties. Likewise, I do not have either
         confidence or trust that you will perform your assigned duties, follow NSF policies, rules or
         regulations.

    5. 	 Consistency of the penalty with those imposed upon other: employees for the same or
         similar offenses. I find this factor relevant. There Is no comparable case at NSF nor have I
         been involved either as proposing or deciding official regarding Uke or similar cases.
         However} the Merit Systems Protection Board has routinely held that removal is a
         reasonable penalty for falsification.

    6. 	 The notoriety of the offense or Its impact upon the reputation of the agency. I find this
          factor relevant. This particular offense did not rise to the level of significant visibility;
          however, because of its stature in the scientific community, NSF must maintain the highest
        . possible standards 	of conduct. It Is also Important that, as NSF demands the highest
          standards of the Institutions that it funds, and uses the Office of the Inspector General to
         conduct oversight on NSF grantees, NSF must aJso maintain eq:ually high standards among
          its employees. Misconduct if not addressed, could lead others to believe that it is not a
         major offense. and widespread abuse could lead to significant notoriety.


                                                                                                     3
  7. 	 The clarity wIth which the employee was on notice of any rules that were vIolated in
       committing the offense, or had been· worned about the conduct in question. I find this
       factor relevant. NSF policy on use of the ITAS system is clear. Each day that you signed
       into ITAS and those where you signed_into ITAS using her password, you were
       required to enter a password and accept the system sign In time as the arrival time at
       work as being correct. You knew or should have known that your conduct was contrary to
       government and NSF policies, rules and regulations. Your conduct is unacceptable in any
       business environment. Further, you were informed by your Supervisor on September 5,
       2008 that falsification of time Is not acceptable and could lead to disciplinary a~tion even
      though at that time, she was unaware of the extent of your misconduct. It Is also clear
      that the September 5 meeting with                 had an impact on you. After that date, the
      pattern of ITAS abuse was artered but did not cease. After September 5, you would wait
      30~45 minutes after you signed in before signing _              in to conceal the continued
      ITAS abuse.

 8. 	 Potential for the employee's rehabilitation. I find this factor relevant. On the one hand, I
      was encouraged by your admission of guilt, fully acknowledging that you committed the
      alleged falsification of time and attendance. On the other hand, I am discouraged by your
      continued proclivity to be dishonest about the facts surrounding this case. In your
      response memo dated May 5, 2009, you state, ''There was never a meeting held or letter
      of record from my supervisor stating what I was being charged with and to discuss possible
      reprimand or probation when it was brought to my attention it was done with a very vague
     email from OIG requesting a meeting on Wednesday October 29, 2008." You are correct
     that no meeting took place to discuss charges or possible disciplinary action. Contrary to
                           ,	 •
     your asse~ion, however,           72    met with you to discuss what she believed to be your
     involvement in time falSification. The evidence provided by the Office of the Inspector
     General, indicate that you were dearly warned and that you subsequently altered your
     behavior, but did not stop your ITAS abuse. Your denial that any meeting with.           •
     regarding your misconduct took place is simply not true, and seriously erodes my
     confidence in your ability to be rehabilitated.

9. 	 The adequacy and effectiveness of alternative sanctions to deter such conduct in the future
     by the employee or others. I find this factor relevant. Given the severity of your
    'misconduct, I believe that removal is warranted to promote the efficiency of the federal
     government.

Overall, I find 9 of the 12 Dougl·as Factors relevant to this case. Therefore, my decision based
upon the analysis of the Douglas Factors) the evidence provided by the Office of the Inspector
Generat, the NSF Division of Human Resource Management, and the information provided
orally and in writing is to uphold the proposed removal. Accordingly, it Is my decision to
remove you from your position and from employment with the National Science foundation
effective June 5, 2009.

If you wish, you have the right to appeal this action, in wrltin& to the Merit Systems Protection
Board (MSPB), Washington Regional Office, 1800 Diagonal Road, Alexandria, Virginia 22314.
For your convenience, a copy of the MSPB appeal form and procedures are enclosed. If you
                                                                                                4
elect to appeal, you must file your appeal with the MSPB no 1ater than 30 days after the
effective date of your removal. You may be represented by a representative of your choice in
filing an appeal.                                  '

Also in accordance with Article XVI of the Collective Bargaining Agreement, you may present a
grievance at any time after receipt of this decision, but not later than twenty-five (25) calendar
days after receipt. Your grievance must begin as an informal grievance and may be presented
either orally or in writing. You may elect only one (1) forum to challenge this decision.

If you believe this action was motivated in whole or in part by discrimination because of your
race, color, religion, sex, age, national origin, physical or mental disability, or your allegation(s)
of reprisal for prior EEO activity, you have the follOWing options available to you: (1) You may
appeal this action and your allegation(s) of discrimination and/or reprisal to the Merit Systems
Protection Board, or (2) pursuant to 29 CFR Part 1614, you may file a complaint about this
action with the National Science Foundation Office of Equal Opportunity Programs. If you
decide to file a discrimination complaint about this action"cYou must bring your arlegation(s} of
discrimination to the attention of an EEO counselor within forty-five (45) calendar days of the
effective date of your removal.

Exercising yoLir right to file an appeal Wnt
                                           i lpostp
                                               l : t ;e th.e June 5, 2009 effective date of your
removal.·                                                                                .




                                                                                                   5
~.




                                            National Science Foundation
                                            4201 Wilson Boulevard
                                            Arlington, Virginia 22230



       Date: 	                April 14.2009

       To:.                  • • • • • • Program Assistant                        .


       From: 	               - - - . Program Support Manager


       Subject: 	             Notice of Proposal to Remove


      This is notice that I propose to remove you from your position of Program Assistant no sooner
      than thirty (30) days from the date of your receipt of this notice. This action is taken for your
      unacceptable conduct.

      As background. an inquiry was initiated into your use of the Integrated Time and Attendance
      System (ITAS) by the Office of Inspector General (OIG), following receipt of an anonymous web
      hotline submission alleging that you and another employee,.....-a regularly signed
      each other into and out of ITAS. The results of that inquiry ar~vestigative Report
      Number 108080047, which is incorporated into this notice of proposal by reference.

      Charge #1 - Unacceptable Conduct

       ~008, you were interviewed by Attorney Advisor
     . - - ' of O/G. Prior to the Interview, you were
       Weingarten rights and a Garrity warning.

      During your Interview with OIG, you acknowledged that on multiple occasions, you had signed
     • • • • • •into fTAS fnthe morning, prior to her arrival at work. because she had asked
      you to do so. You also acknowledged that you had                 .     that this was not right, and
      told her that it was "inconsistent," in that you were                      earlier than 7
      arrived at work. so that the ITAS entries were not correct or cons          with when •
      actually arrived at work. You also stated during the interview that you did not know how tate.
     E         arrived at the office after you signed. her into ITAS in the morning. You also
     acknowledged that you andS                     had given your ITAS passwords to· each· other. Your
     ~• • •     vi.o'iauon of timekeeping· procedures has also been observed by your timekeeper, _
     •	                    according to an interview conducted with her by OIG on October 27,2008.

     During your interview with OrG. you were asked whether you had any remorse about Signing in
     and out of the system, and you responded that you did have remorse. You also stated that while
     previously, you did not thInk that it was doing any harm to NSF to sign - . into ITAS.
     you now saw how it hurts. You also stated that you had spoken to                  It many times,
     stating that there courd be "qad repercussions," and that "we both coUld be terminated."
                                                                                                      2

  morning if she was doing her 8 hours anyway and could have just signed in upon her arriva',
  you could not answer the question and stated, "I've asked myself that very thing. I don't know."

  Toward the end of the interview, you stated that you a n d _ both knew that you may
  end up begin terminated because what you did was wrong.

 The speCifications below, which derive from the above-referenced IG report, as well as from a
 close review of your and                   ITAS records, proximity badge records. Outlook e-mail
 records, NSF telephone records                records for your NSF desktop computer, support the
 charge of unacceptable conduct and represent occasions when you signed                         into
 ITAS. It is clear from the review of records that in many instances, your sign-in time into ITAS is
 within 10 minutes of                  but the review of all other records indicates that _
 was not at work for sometimes up to several hours after you signed her in.

 SpeCification #1.
 On Friday. May 23, 2008, rTASrecords indicate that you were signed into ITAS at 7:50 am and
 • • • •was signed in at 7:51 am. However. evidence indicates that she did not report for
 duty until 9:49 am. She was compensated for 1 hour 58 minutes that she did not work.

 SpeCification #2.
 On Thursday. May 29.2008, ITAS records indicate that you were signed into' ITAS at 7:14 am.
 and you received a phone call an your NSF telephone at 8:09 am, following which
 was signed into' ITAS at 8:10 am. However. evidence indicates that she did not repart for duty
 until 8:45 am. She was campen sated for 35 minutes that she dfd not work.

 Specification #3.
 On Thursday, June 5, 2008, ITAS records indicate that you were signed into ITAS at 7:14 am
and                was signed in at 7:15 am. Yau placed three calls fram yau NSF telephone to'
               cell phone at 7:12 am, 7:28 am and 7:32 am. A phone call then came into your
NSF telephone at 7:50 am from a celt phone located in                      where _             cell
phane is registered. following which she was signed out of ITAS at 8:00 am. Records indicate
that R            did not report for duty, although her ITAS recards indicate that she was present
from 7:15-8:00 am. She did nat use her badge, camputer or NSF telephane on that day. She
was campen sated for 45 minutes that she did not wark.

Specification #4~                                                                      .

  ••awas
On Friday, June 6, 2008, ITAS recards indicate that you were signed into ITAS at 7:02 am and
                   also signed In at 7:02 am. However, evidence indicates that she did not report
for duty until 7:40 am. She was campensated for 38 minutes that she did not wark.

 Specification #5.
 On Friday, June 13, 2008, ITAS records indicate that you were signed into' ITAS at 7:00 am and
 I           was also signed in at 7:00 am. However, evidence indicates that she did not report
tor duty until 8:13 am. She was compensated for 1 hour 13 minutes that she did nat work.
Specification #6.
On Manday, June 23, 2008, ITAS records indicate that yau were signed into ITAS at 7:00 am
and               was also. signed in at 7:00 am. Hawever. evidence indicates that she did nat
report far duty until 7:55 am. She was campensated far 55 minutes that she did not work.

SpeCification #1.

                                                                                                2
                                                                                                  3

 On T~ne 26. 2008, ITAS records indicate that you were signed into ITAS at 7:00 am
 and _ _ _ was also signed in at 7:00 am. However, evidence indicates that she did not
 report for duty until 8:43 am. She was compensated for 1 hour 43 minutes that she did not work.

 Specification #8.
 On Wednesday, July 2,2008, ITAS records indicate that you were signed into ITAS at 7:17 am
 and               was also signed in at 7:17 am. However, evidence indicates that she did not
 report for duty until 10:28 am. Between 7:17 am and 10:28 am, four calls were placed from.
 _ c e l l phone to your NSF telephone at 8:56 am, 9:15 am. 9:51am and 10:26 am. She
 was compensated for 3 hours and 1 minute that she did not work.

, Specification #9.
  On ~July 3,2008, ITAS records indicate that you were signed into ITAS at 7:10 am
  and _ _ was signed in at 7:11 am. However, evidence indicates that she did not report
  for duty until 9:26 am. She was compensated for 2 hours 15 minutes that she did not work.

  Specification #10.
  On T~uly 10, 2008, ITAS records indicate that you \lVere signed into ITAS at 7:00 am
. and _ _ _was also signed in at 7:00 am. However, evidence indicates that she did not
  report for duty until 9:55 am. She was compensated for 2 hours 55 minutes that she did not
  work.

Speciffcation #11.
On Friday, July 11, 2008, ITAS records indicate that you were signed into ITAS at 7:00 am and
• • • •was also signed in at 7:00 am. However, evidence indicates that she did not report
for duty until 8:38 am. She was compensated for 1 hour 38 minutes that she did not work.

Specification #12.
On MOna July 14, 2008, ITAS records indicate that you were signed into tTAS at 7:11 am
and                was signed in at 7:12 am. However,evidence indicates that she did not report
for duty until to:01 am. You received a call on your NSF telephone from             cell phone
at 8:10am. £           &was compensated for 2 hours 49 minutes that she did not work..
Specification #13.
On Thursday, July 17, 2008. ITAS records indicate that you were signed into ITAS at 7:09 am
and               was signed in at 7:10 am. However. evidence indicates that she did not report
for duty until 8:49 am.' She was compensated for 1 hour 39 minutes that ~he did not work.

Speeification #14.
On T~~uly 24.2008, ITAS records indicate that you were signed into ITAS at 7:00 am
and--.was signed in at 7:04 am. However. evidence indicates that she did not report
for duty until 8A9 am. She was compensated for 1 hour 45 minutes that she did not work.

Specification #15.
On Friday, August 1, 2008, ITAS records indicate that you were signed into ITAS at 7:01 am
a n d _ w a s signed in at 7:09 am. However, evidenc~ indicates that she did not report
for duty unti111:27 am. You placed a caU from your NSF telephone t o _ c a f l phone at
7:02 am. F            then pl.aced multiple calls from her cell phone to your NSF telephone at
7:08 am, 7:24      9:41 am, 10:27 am, 10:37 am, 10:41 am, 10:47 am, 10:54 am, 10:58 am and
11:07 am.                  interviewed by the NSF Office of Inspector General on October 30,
2008, regardin·g her use of the ITAS system. Dyrfng this interview, she confirmed that she


                                                                                             3
                                                                                                    4

  atten,ded the Filene's Basement Wedding Event on the morning of August 1, 2008. She was
  compensated for 4 hours 18 minutes that she did not work.

  Specification #16.
  On Friday, August 8, 2008,ITAS records indrcate that you were signed into ITAS at 7:00 am
  and               was signed in at 7:06 am. However, evidence indicates that she did not report
  for duty until 8:40 am. She was compensated for 1 hour 34 minutes that she did not work.

 SpecificatIon #17.
 On Monday, August 25. 2008. ITAS records indicate that you were signed into ITAS at 7:11 am
 a n d _ w a s signed in at 7:12 am. However, evidence indicates that she did not report
 for duty until 8:28 am. She was compensated for 1 hour 16 minutes that she did not work.

  Specification #18~
  On Thursday. August 28, 2008, .TAS records indicate that you were signed into ITAS at 7:10
  am and~ was signed in at 7: 11 am. However, evidence indicates that she did not
 'report for duty until 9:30 am. 'noted on that day that I first s a w - ' a t 9:40 am. She was
  compensated for 2 hours 19 minutes that she did not work.

 Specification #19.
 On              ust 29,2008. ITAS records indicate that you were signed into ITAS at 7:03 am
 and              was also Signed in at 7:03 am. However, evidence indicates that she did not
 report for duty until 9:18 am. She was compensated for 2 hours 15 minutes that she did not
 work.

 Specification #20.
 On Tuesday, September 2, 2008, ITAS records indicate that you were signed into ITAS at 7:00
 am and I           IT was Signed in at 7:06 am. However, evidence indicates that she did not
 report for duty until 9:05 am. , noted on that day that I first         at 9:12 am. She was
 compensated for 1 hour 59 minutes that she did not work.

Speclflcation #21.
On Wednesday, September 3. 2008, ITAS records indicate that you were signed into ITAS at
7:00 am and ,              was signed in at 7:02 am. However. evidence indicates that she did not
report for duty until 9:30 am. I not~d on that day that 1first saw~at 9:30 am. She was
compensated for 2 hours 28 minutes that she did not work.

Specification #22.
On Thursday, September 4,2008. ITAS records indicate that you were signed into ITAS at 7:06
am and •
                                                              is••••
                      was signed in at 7:07 am. However, evidence indicates that she did not
report fgr duty untjf9:45 am. J noted on that day that I first saw
compensated for 2 hours 38 minutes that she did not work.
                                                                        at 9:45 am. She was


Speclflcatfon #23.
On Tuesday. September 30,2008, ITAS records indicate that you were signed into ITAS at 7:09
am and •               was signed in at 9:00 am. However, evidence indicates that she did not
report for duty until 10:00 am. I noted on that day that I first s a w _ a t 10:00 am. She
was compensated for 1 hour that she did not work.                      ,

Speciflcatlon #24.



                                                                                              4
                                                                                                      5

 On Wednesday, October 1,2008, ITAS records indicate that you were signed into ITAS at 7:09
 am and _              was signed in at 8:00 am. However, evidence indicates that she did not
 report for duty until 10:40 am. She was compensated for 2 hours 40 minutes that she did not
 work.                               '

 Based on your admissions in the interview conducted by OIG and the above~referenced
 records, I find that you signed           into ITAS on these occasions, as a result of which,
 she was compens~ted for a total of 46 hours 16 minutes that she did not work. With your
 assistance. she earned salary, benefits,leave and credit hours to which she was not entitled
 during this time.

 Penalty Consideration'

 Your misconduct is serious, significant and unacceptable for a Federal employee As a Federal
 employee, you are bound to abide by the Standards of EthI,caI Conduct for Employees of the
 Executive Branch (5 CFR 2635), which states that each of us is responsible to ensure that every
 citizen has complete confidence in the integrity of the Federal government.

 In proposing this action, J have considered your ten years of service in the Federal government.
 However, I have also considered that you have only been employed at the National Science
 Foundation for two years and 4 months at the National Science Foundation and that you were
 rated "minimally successful" on your last performance appraisal. Therefore, I do not find that
 your overall length of service with the Government represents an effective mitigating factor in
 my consideration of an appropriate proposed penalty.

The fact that these incidehts happened repeatedly and over such a significant period of time
seriously undermines my ability to believe in your potential for .rehabilitation. The fact that you
have admitted that you knew your actions were wrong and yet you continued' to violate
governmental pOlicies displays both a lack of judgment and a disregard for governmental
regulations. You~ actfonshave eroded my faith in your trustworthiness. Therefore, based on the
evidence available to me, J must propose your removal from Federal employment.

It is extremely important that you recognize that this is a proposed action and not a decision. I
am not the agency officiat who will render a decision on this action. That determination wiU be
made by                          , Deputy Division Director for the· DiviSion of
                                  who is the deciding official in this case. Before making any
decision,               must consider any oral and/or written reply and any other documentation
that you choose to provide.

Therefore, I encourage you to reply to the charges and specifications orally, in writing, or both;
and to furnish affidavits .and other documentary evidence that you wish to have considered by
              before he makes a decision.
             I

You will have fourteen (14) calendar days after the date you receive this notice to reply orally
andlor in writing and to provide any other documentary evidence to                You have the
right to be represented by an attorney or other representative of your chOOSing. You have the
right to a reasonable amount of work time to prepare your oral and/or written reply. You have
the right to review the material which was relied upon to support the reasons for the proposed
a~~                                                           ,



                                                                                                5
                                                                                                   6


 Please provide any written reply to the charges to              . If you wish to reply orally,
 please contact              at (703) 292-     to arrange an appointment.

                will carefully review this proposal and the material upon which it was based, and
 will thoroughly consider any oral and/or written reply made by you or your representative before
 making a decision.                    will also fully consider any other affidavits or documentary
 evidence that you wish to provide. Because no decision has been made, you are expected to
 report to work as scheduled during the proposal notice period.

 If you believe a personal problem has contributed to or caused your inappropriate behavior, I
 urge you to make an appointment with an Employee Assistance Program (EAP) Counselor. This
 is a confidential program" and you may reach a counselor by calling the COPE at (202) 628-
 5100 to schedule an appointment. RecommendingEAP is sorely to advise you of the availability
 of assistance. Ultimately. you are responsible for correcting your conduct

  If you have any questions regarding your rights or the procedures used in this matter, you may
  contact Ms.                 Senior Employee Relations Specialist, in the Division of Human
. Resource Management.              can be reached on extension




                                                                                               6
                                           UNITED STATES OF AMERICA
-~-.------.-   ----- ..--.-- - ···-------MERIT··SYSTEMS-PR9TEeTI9N-·B9ARD· -..--. ~-------..


                                    ,                           DOCKET NUMBER
                                    Appellant,

                            v.
               NATIONAL SCIENCE                                 DATE:
                 FOUNDATION,
                            Agency.




                                                            pro se.

                                 , Esquire, Arlington, Virginia, for the agency.

                                                     BEFORE
                                           Neil A. G. McPhie, Chairman .
                                           Mary M. Rose, Vice Chairman



                                                  FINAL ORDER

                     The appellant has filed a petition for review in this case asking us to
               reconsider the initial decision issued by the administrative judge.      We grant
               petitions such as this one only when significant new evidence is presented to us
           .that was not available for consideration earlier or when the administrative judge
               made an error interpreting a law or regulation. The regulation that establishes
               this standard of review is found in Title 5 of the Code of Federal Regulations,
           . section 1201.115 (5 C.F.R. § 1201.115).
                     After fully considering the filings in this appeal, we conclude that there is
               no new, previously unavailable, evidence and that the administrative judge made
               no error in law or regulation that affects the outcome. 5 C.F.R. § 120LI15(d).
                                                                                                       2


-~- _._-.- ------Therefore-;--we-f)ENY--the-petition-for--review;---'The--initial- decisi on--of·-the'------·----·- -

              administrative judge is final.         This is the Board's final decision in this matter.
             -5 C.F.R. § 1201.113..

                            NOTICE TO THE APPELLANT REGARDING
                                 YOUR FURTHER REVIEW RIGHTS
                    You have the right to request the United States Court of Appeals for the
              Federal Circuit to review this final decision. You must submit your request to the
              court at the following a:ddress:
                                            United States Court of Appeals
                                                for the Federal Circuit
                                              717 Madison Place, N.W.
                                               Washington, DC 20439

              The court must receive your request for          revi~w     no later than 60 calendar days
              after your receipt of this order. If you have a representative in this case, and your
              representative receives this order before you do, then you must file with the court
              no later than 60 calendar days after receipt by your representative. If you choose
              to file, be very careful to    fil~   on time. The court has held that normally it does
              not have the authority to waive this statutory deadline and that filings that do not
              comply with the deadline must be dismissed. See Pinat v. Office of Personnel
              Management, 931 F.2d 1544 (Fed. Cir. 1991).
                    If you need further information about your right to appeal this decision to
              court, you should refer to the federal law that gives you this ri.ght. It is foun.d in
              Title 5 of the United States Code, section 7703 (5 U.S.C. § 7703). You may read
              this law, as well as review the Board's regulations and other related material, at
              our website, http://www.mspb.gov.            Additional information is available at the
              court's website, www.cafc.uscourts.gov.               Of particular relevance is the




                       -   .   __._.......•_ ...... - - - - - - - - - -
                                                                                                  3


·-··------·------court'g-1I6uide-:.for-Pro-Se-Petitioners-and--AppeHants,n-which-is-contained-within------
              the court's Rules of Practice, and Forms 2.. .9., and ll.




              FOR THE BOARD:
                                                          William D. Spencer
                                                          Clerk of the Board
            . Washington, D.C.
